Before the Committee on Commerce, Science, and Transportation
Subcommittee on Surface Transportation and Merchant Marine
United States Senate



  For Release on Delivery
                            Household Goods
  Expected at
  10 a.m. EST               Moving Fraud
  Thursday
  May 4, 2006
  CC-2006-044




                            Statement of
                            Todd J. Zinser
                            Acting Inspector General
                            U.S. Department of Transportation
Chairman Lott, Ranking Member Inouye, and Members of the Subcommittee:

Thank you for the opportunity to testify today on household goods transportation
fraud. This is a serious problem with thousands of victims across the country.
Although the vast majority of the well over one million interstate household goods
shipments each year are conducted by hard-working professionals and honest
household goods carriers, our investigations have found criminal elements that
operate at the fringe of the industry and victimize the public.

In April 2005, we testified before your Committee and highlighted this problem,
among other issues related to the surface transportation reauthorization bill. We
discussed legislative proposals to better protect consumers from household goods
fraud, and Congress subsequently incorporated several provisions in
SAFETEA-LU 1 to strengthen consumer protection. We want to continue to work
with the Congress and the Department to remove the criminal element from this
important industry, and we appreciate the opportunity to update the Committee on
our investigative work in this area.

Since 2000, we have investigated alleged household goods fraud committed
against about 8,000 victims nationwide by 25 household goods carriers, operating
under 107 different names, along with their officers and employees. These
investigations resulted in 90 convictions and nearly $16 million in fines,
restitution, and other monetary recoveries. The offenders were sentenced to jail
terms totaling over 175 years, with some receiving prison terms exceeding 12
years. Another 25 individuals who were indicted remain fugitives.

The criminal conduct we have targeted through our investigations consists of
holding a customer’s household goods hostage while demanding significantly
larger sums of money than quoted. In carrying out this crime, the perpetrators
engage in extortion, conspiracy, wire fraud, mail fraud, money laundering, and
falsification of bills of lading and shipment weight documents. Thanks to
SAFETEA-LU, there is now a specific criminal statute that makes holding
household goods hostage a Federal felony.

Our household goods criminal investigations are often conducted with the FBI and
with the assistance of the Federal Motor Carrier Safety Administration (FMCSA).
In several cases, we carried out undercover operations in which our agents and
those from the FBI posed as consumers to catch perpetrators in the act. In many
cases, state and local law enforcement officials also participate in the


1
    The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users.
                                                                                  2

investigation. Here are some examples of investigations that resulted in
significant and successful prosecutions.

      • After extorting over $2.3 million from 1,200 victims, the owner of a
        now-defunct Florida carrier, Majesty Moving and Storage, was
        convicted of extortion, wire fraud, conspiracy to commit money
        laundering, and creating false bills of lading. He was sentenced to more
        than 12 years in Federal prison. At the defendant’s January 2005
        sentencing, the judge expressed outrage for the ordeals that victims had
        been through at the hands of the defendant who had made himself rich
        “victimizing people who simply wanted their belongings moved… .”
        Fifteen other company employees were also convicted, while 2 other
        employees remain fugitives.

      • Four individuals who operated Starving Students Moving and Storage,
        in Brooklyn, New York were prosecuted for defrauding approximately
        150 customers and holding the customers’ household goods hostage.
        Two received Federal prison sentences of 12½ years. In addition to the
        prison sentences, the defendants were ordered to pay over $2.5 million
        in fines and restitution. Starving Students conducted similar business
        practices under 4 other company names.

      • Ego Line Moving & Storage of California defrauded approximately 500
        victims nationwide of over $1.5 million during a 3-year period.
        Sometimes, if a customer refused to pay significantly inflated charges,
        their household goods were simply tossed out of the truck. Four
        persons were convicted in Federal court for this scheme, and 3 were
        imprisoned.

      • Three employees of All Points USA, a Florida moving company, were
        convicted of various offenses in Federal court including wire fraud, mail
        fraud, extortion and conspiracy. The 1,100 victims of the fraud suffered
        losses of more than $2 million over the course of the 4-year conspiracy.
        One employee was sentenced to 7 years in Federal prison while the
        other 2 received 5-year sentences. All 3 were ordered to pay a total of
        over $1 million in restitution. The 2 owners of the company are
        believed to have fled the country and remain fugitives.

      The victims of these crimes come from all walks of life. They include
      retirees, disabled veterans, single parents, young professionals, and families
      who many times have entrusted almost all of their possessions to
      companies who appear legitimate but soon reveal their criminal nature. In
                                                                                 3

      some instances, the victims never see their belongings again, or they
      recover their damaged possessions many months later. Sometimes their
      goods are looted and sold, or end up in the homes of the perpetrators. Here
      are a few examples of how victims suffered from this particularly cruel
      form of extortion.

      • Household goods belonging to a mother and infant were held hostage
        for more than a year because the mother did not pay the carrier’s
        demand of a five-fold increase in the cost of their move from New York
        to Florida.

      • A West Virginia couple paid $5,000 in bogus charges after the carrier
        threatened that they would never again see their household goods, which
        included a piano that had belonged to the couple’s deceased son.
        Although they eventually received their goods, the piano had been
        damaged beyond repair.

      • An elderly New York couple, intimidated and fearing physical harm
        from a moving crew, paid $5,000 for a move quoted at $1,500.

      • A Massachusetts woman testified at trial that she felt “violated” when a
        carrier loaded her goods on a truck and demanded $16,000—more than
        four times the company’s estimate of $3,600.

      • A family of nine, moving from Illinois to California, took only clothes
        and a few other personal possessions. The rest of their belongings,
        including the textbooks for the home-schooled children, were loaded
        onto a truck. The moving company refused to deliver their household
        goods until they paid $7,700 for a move quoted at $1,500. Unable to
        pay, they were forced to live 6 weeks in an empty house. To this day,
        family members are overcome with emotion when recalling their ordeal.

Criminal enterprises, like the one that victimized that family, first came to our
attention when the Interstate Commerce Commission (ICC) was terminated at the
close of 1995, and authority for regulating interstate household goods
transportation was transferred to the Department of Transportation. FMCSA now
has responsibility for day-to-day regulation of interstate household goods movers,
although its role is more limited than the ICC’s.

Under current statutory provisions, customers are responsible for resolving their
own loss or damage disputes with movers by going to court or using an arbitration
program that each household goods carrier is required to establish. Our office has
authority to investigate fraud involving any entity regulated by the Department. In
                                                                                4

the case of household goods fraud, we open investigations when there are
allegations that large numbers of consumers have been victimized through
schemes to hold their household goods hostage. Generally, we do not investigate
individual consumer complaints.

We recognize that FMCSA has increased the attention it pays to household goods
enforcement and outreach over the last several years. We have not assessed the
effectiveness of the increased activities. However, based on our review of the new
SAFETEA-LU provisions and audit work we have carried out in other areas of
FMCSA’s programs and operations, we would make the following
3 recommendations for FMCSA in the near term as it moves to better protect the
consumer.

   • First, SAFETEA-LU requires that the Department establish a database for
     consumer complaints on household goods carriers and make the
     information available to the public. We understand that FMCSA maintains
     a database at its headquarters that lists complaints broken into categories,
     including goods being held hostage.

      FMCSA is working to establish a system meeting the public access
      requirement. Such a system will enable the public to identify carriers with
      multiple complaints, and perhaps avoid carriers with a track record of
      complaints of holding household goods hostage. SAFETEA-LU gives
      FMCSA until August 2006 to meet the database and public access
      requirement. FMCSA informed Congress in 2003 that it would develop a
      web-based report providing public access to mover complaint history in
      response to a 2001 Government Accountability Office recommendation.
      As the busiest time for moving—summer—is fast approaching, FMCSA
      should promptly complete its work to make this information available to
      the public in time for this year’s moving season.

      Aside from providing consumers with a tool for making better-informed
      decisions when selecting a mover, public access to complaint information
      may have the added benefit of improving the information FMCSA has to
      conduct its enforcement and oversight operations. Our audit work
      regarding motor carrier safety information has shown that when data are
      made public, greater attention is devoted by the agency to ensuring that the
      data are complete, timely, and accurate. Such improved data can be used
      by FMCSA to better target its enforcement work and assess the success of
      its outreach efforts.

   • Second, the Committee’s attention to cross-border trucking safety issues
     raised in our previous audit work helped clearly establish the authority of
                                                                                 5

      state enforcement personnel to place commercial vehicles “out of service,”
      if they do not have valid operating authority from FMCSA. By this action,
      a vehicle must cease operations until proper operating authority is obtained.

      Because our investigations have identified household goods carriers doing
      business without operating authority or after having their authority revoked,
      this authority to bar these vehicles from the highways provides state
      officials with another tool to use against corrupt interstate household goods
      movers. FMCSA should ensure state enforcement personnel use this tool
      when possible against unregistered or suspended carriers that hold
      household goods hostage or commit other fraud. This tool can be used to
      place “out of service” any vehicles that continue to operate after operating
      authority is suspended. SAFETEA-LU also allows the Secretary to
      suspend the registration of a carrier holding a shipment hostage.

   • Third, in our view, FMCSA can do more to implement the
     SAFETEA-LU provision which allows states to enforce Federal consumer
     protection provisions for individual shippers, as determined by the
     Secretary.     Although legitimate concerns about the potential for
     inconsistent enforcement by state authorities should be addressed, we view
     state enforcement as a positive factor. In particular, it would be beneficial
     to leverage state enforcement resources against movers who hold household
     goods hostage.
Common Household Goods Fraud Schemes
Our fraud investigations have been concentrated in South Florida, the greater New
York City metropolitan area, and California. However, the problem is not
confined to those regions, and other states covered in our investigations include
Colorado, Illinois, Oregon and Washington state, with victims from all over the
country. The number of household goods criminal cases we have investigated has
remained fairly constant over the past 3 years, although the number of complaints
we receive concerning household goods on our IG Hotline has increased
significantly during that time. FMCSA’s hotline for household goods has seen
increases as well.

The fraud carried out by Majesty Moving and Storage of Plantation, Florida,
illustrates the schemes used by virtually all the operators we have investigated.
Majesty, whose owners were sentenced last year, defrauded over 1,200 victims out
of over $2.3 million. To conceal their complaint history and to avoid enforcement
action, Majesty frequently operated under a variety of names, such as Apollo Van
Lines, America’s Best Movers, Movers Express, Star Movers, and First Class
Moving. They also used the name Mayflower Express, for which they maintained
                                                                                 6

an advertisement in a telephone directory that stated "Mayflower Express – Move
with the Name You Trust.” This served to confuse consumers into thinking they
were dealing with Mayflower Transit, a legitimate and long-established mover.
Mayflower Transit successfully sued Mayflower Express to stop the unauthorized
use of its Mayflower trade name and logo.

Prior to the advent of the Internet, operators such as Majesty relied primarily on
advertising through telephone directories, newspapers, and direct mail. The
Internet has broadened the market, and for unscrupulous movers, this enables them
to lure customers well beyond their local area.

Majesty used the Internet to bring in most of its customers by subscribing to “find
a mover” websites. For a fee, these websites forwarded leads on prospective
customers to their subscribers. Carriers such as Majesty in turn contacted
potential customers and provided estimates for household goods moves that were
often considerably lower than most legitimate carriers.

The estimates were also typically calculated based on volume (as measured in
cubic feet) rather than by the common method of calculating based on the actual
weight of the goods. Estimating by volume (the amount of space the goods
occupied in the truck) created greater opportunities for fraud. Our investigations
disclosed that movers would often put small items in large boxes and leave empty
space between the truck’s bulkhead and the first row of boxes.

Majesty did not provide on-site estimates. Rather, it calculated its volume
estimates based upon a written or verbal list of items provided by the customer via
telephone, fax or email. To justify charging for additional cubic feet, Majesty
often claimed that the customer added items on moving day and withheld items
from the original estimate list. Prior to having their household goods picked up by
Majesty, customers were required to pay a deposit.

After household goods had been loaded onto the truck, the customer would be
informed that they had more goods than originally estimated and that the cost of
their move had increased often 2 and even up to 10 times the original price. If a
customer protested the price increase and demanded their goods be unloaded,
Majesty typically drove away with the customer’s goods.

Household goods were then often stored in a rented storage unit located near
where they had been picked up. Typically, the first month’s rent was free to the
movers and they would pay only one additional month’s rent. If the customer
chose not to pay the inflated “hostage” price, the moving company would not
make any further rent payments. The storage facility would eventually seize and
auction or otherwise dispose of the customer’s goods, due to non-payment of the
                                                                                 7

rent. In some instances we found that moving company employees had stolen
items from customer shipments—even using some of the stolen shipments to
furnish their own homes.

In 2004, Majesty’s owner, Yair Malol, was convicted of multiple felony counts of
wire fraud, extortion, creating a false bill of lading and conspiracy to commit
money laundering. Malol was sentenced to over 12 years in Federal prison and
ordered to pay $986,665 in restitution. When his prison term is completed, Malol
will be surrendered to the Bureau of Immigration and Customs Enforcement for
proceedings to expel him from the United States. Fifteen other Majesty
defendants were also convicted, while eight defendants remain fugitives.

Nearly all of our investigations involve fraud schemes similar to those employed
by Majesty. In another case, involving a California company named Ego Line
Moving & Storage, the movers sometimes simply tossed the victims’ possessions
from the truck and onto the pavement, rather than store them. Ego Line defrauded
approximately 500 victims nationwide of nearly $1.5 million during a 3-year
period.

Owners of a company called Starving Students Moving and Storage, which also
did business under three other names, used what Federal prosecutors called a
“blizzard of lies” to trick unwitting customers into making large additional
payments. If customers balked, their goods were held in a warehouse until more
money was paid. The defendants created multiple websites to attract customers,
such as “FlatPriceMove.com.” Two of the four defendants in this case were each
sentenced to over 12 years imprisonment. Restitution and fines in the case totaled
over $2.5 million.

Starving Students was preceded by yet another company, Jacoby Moving and
Storage (Jacoby), owned by Avinoam Damti. Jacoby had been the subject of
numerous complaints, and its interstate operating authority was revoked in
September 1996 and its intrastate authority was revoked in February 1997. About
2 weeks later, Starving Students applied for operating authority, listing Damti’s
brother-in-law as president. Two other companies applied for operating authority
in 2000. Each of the three applications listed a different co-defendant as its
president, serving to conceal that the fourth defendant, Damti, president and owner
of the revoked Jacoby, was the actual owner of all three new companies.
                                                                                                               8


Conclusion

From our perspective, Subtitle B of SAFETEA-LU includes important safeguards
for consumers moving their household goods. We also commend the industry for
its efforts to educate and assist the public in combating the hostage goods problem.
Although it is too early to gauge the full effect of the SAFETEA-LU provisions,
we have specific comments on two: the provision creating a Federal felony of
holding goods hostage, with a two-year maximum penalty for each count, and
another granting states the authority to take enforcement actions under Title 49 of
the United States Code and associated regulations.

The new Federal felony sends a strong message that the government takes this
criminal conduct very seriously. That alone is likely to have a significant deterrent
effect. The existence of a Federal statute may also simplify the prosecution of
some of these cases. Up to now our cases have relied on a number of different
Federal statutes, such as wire fraud, conspiracy, and extortion, to convict
perpetrators of household goods fraud. One significant concern, which we
commented on last year, is that the 2-year maximum penalty established by
SAFETEA-LU is not on par with other Federal felonies. Federal felonies typically
have at least a 5-year maximum penalty, and prosecutors may be less inclined to
use the new statute because of the relatively low sentence.

SAFETEA-LU also provides that states can enforce consumer protection
provisions for individual shippers, as determined by the Secretary. We previously
supported granting states enforcement authority in this area and continue to do so.
Currently, states are limited in their ability to enforce some state laws, including
certain consumer protection provisions, because Federal law preempts application
of these state laws with respect to interstate moves. 2 While legitimate concerns
about the potential for inconsistent enforcement by state authorities should be
addressed, we view state enforcement of designated Federal provisions as a
positive factor. In particular, it would be beneficial to leverage state enforcement
resources against movers who hold household goods hostage.

At present, corrupt household goods movers are generally not Federally
prosecuted until numerous victims are identified and a large-scale case is
developed. For example, the hostage goods cases we investigate often involve
hundreds or even over a thousand victims, with fraud totaling millions of dollars.
State authorities are in a better position to pursue cases with fewer victims and
smaller losses, and to provide more timely action to stop unscrupulous movers—
perhaps even while the hostage goods are still on the truck.

2
    The Carmack Amendment was enacted in 1906 to establish a uniform system of liability to eliminate uncertainty
     associated with conflicting state laws on interstate shipments.
                                                                                   9

Given the large number of victims and the serious impact this crime has on their
lives, investigative and prosecutorial resources at all levels must be used to combat
household goods fraud. We will continue to do our part investigating these
crimes. We will also continue to work with the Congress and the Department,
along with consumer groups and industry, to seek ways to remove these criminal
elements from the household goods industry.

This concludes our testimony. We would be glad to answer any questions that you
have.
